 

U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 8, 2019

Honorable Scott S. Harris

Clerk

Supreme Court of the United States
Washington, D.C. 20543

Re: New York Republican State Committee v. Securities Exchange Commission,
$.Ct No. 19-343

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
16, 2019, and placed on the docket on September 17, 2019. The government’s response is due

on October 17, 2019.

We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 18, 2019, within which to file the government’s response.

This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,

Noel J. Francisco
Solicitor General

ce: See Attached Service List
19-0343
NEW YORK REPUBLICAN STATE COMMITTEE
SEC

JASON TORCHINSKY

HOLTZMAN VOGEL JOSEFIAK TORCHINSKY
PLLC

45 NORTH HILL DRIVE

SUITE 100

WARRENTON, VA 20186

540-341-8808

JTORCHINSKY@HVJT.LAW
